Audit Report




OIG-11-020
Management Letter for Fiscal Year 2010 Audit of the
Bureau of Engraving and Printing’s Financial Statements


November 12, 2010




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            November 12, 2010


            MEMORANDUM FOR LARRY R. FELIX, DIRECTOR
                           BUREAU OF ENGRAVING AND PRINTING

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2010 Audit of the
                                  Bureau of Engraving and Printing’s Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Bureau of Engraving and Printing’s (BEP) Fiscal Year 2010 financial
            statements. Under a contract monitored by the Office of Inspector General, KPMG
            LLP, an independent certified public accounting firm, performed an audit of the
            financial statements of BEP as of September 30, 2010, and for the year then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued, and is responsible for, the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and its operations that were identified during the audit but were
            not required to be included in the audit reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a member
            of your staff may contact Shiela Michel, Manager, Financial Audits, at
            (202) 927-5407.

            Attachment
THE DEPARTMENT OF THE TREASURY

   BUREAU OF ENGRAVING AND
           PRINTING




          MANAGEMENT LETTER
 FOR THE YEAR ENDED SEPTEMBER 30, 2010
            NOVEMBER 9, 2010
                                          BUREAU OF ENGRAVING AND PRINTING
                                                MANAGEMENT LETTER
                                        FOR THE YEAR ENDED SEPTEMBER 30, 2010

                                                           TABLE OF CONTENTS




MANAGEMENT LETTER .................................................................................................................................. 1

APPENDIX A ............................................................................................................................................ A-1

   2010-01             Lack of Documentation for a Spare Part Issuance............................................................ A-1
   2010-02             Ineffective Monitoring of the Security Hotline .................................................................. A-1
   2010-03             Failure to Record a Fixed Asset Disposal ......................................................................... A-2
   2010-04             Lack of Acknowledged Receipt of Code of Conduct .......................................................... A-3
STATUS OF PRIOR YEAR’S RECOMMENDATIONS ......................................................................................B-1
                             KPMG LLP
                             2001 M Street, NW
                             Washington, DC 20036-3389




November 9, 2010

The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited the financial statements of the Bureau of Engraving and Printing (the Bureau),
as of and for the year ended September 30, 2010, and have issued our report thereon dated
November 9, 2010. In planning and performing our audit of the financial statements of the
Bureau, we considered internal control over financial reporting (internal control) as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the financial
statements. We have also examined management’s assertion that the Bureau maintained effective
internal control over financial reporting as of September 30, 2010, and have issued our report
thereon dated November 9, 2010.

During our audit, we noted matters related to internal control and other operational matters that
are presented for your consideration in Appendix A to this report. These comments and
recommendations, all of which have been discussed with the appropriate members of
management, are intended to improve internal control or result in other operating efficiencies.
Management’s response to these comments and recommendations are included in Appendix A.
We did not audit the Bureau’s response and, accordingly, we do not express an opinion on them.

Our audit procedures were designed primarily to enable us to form an opinion on the financial
statements and to form an opinion on management’s assertion and, therefore, may not bring to
light all weaknesses in policies and procedures that may exist. We aim, however, to use our
knowledge of the Bureau’s organization gained during our work to make comments and
suggestions that we hope will be useful to you.

We would be pleased to discuss these comments and recommendations with you at your request.

This report is intended solely for the information and use of the Department of the Treasury’s
Office of Inspector General and management of the Bureau, and is not intended to be and should
not be used by anyone other than these specified parties.

Very truly yours,




                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
                                                                                      Appendix A




2010-01         Lack of Documentation for a Spare Part Issuance

The Bureau of Engraving and Printing (the Bureau) was not able to provide documentation to
support one spare part issuance. Management stated that the supporting transfer/delivery ticket
for the issuance of this spare part was accidently disposed of. OMB Circular No. A -123,
Management Accountability and Control, Section II: Establishing Management Controls, states,
“Transactions should be promptly recorded, properly classified, and accounted for in order to
prepare timely accounts and reliable financial and other reports. The documentation for
transactions management controls, and other significant events must be clear and readily
available for examination.” The amount of the spare part for which supporting documentation
was not retained was $834. Without adequate documentation supporting transactions, expenses
may be overstated and inventory may be understated. In addition, lack of documentation related
to spare parts issuances increases the risk of misstatement due to misappropriation of assets.

We recommend that the Bureau review policies and procedures in place over spare parts
issuances and ensure that they include documentation retention guidelines. The Bureau should
also ensure the policies are being implemented properly and consistently by monitoring their
operation.

Management Response:

Management concurs with the finding and recommendation. Due to the uniqueness of this
inventory item; internal records are maintained to monitor consumption rates and to determine re-
order points, not to document usage, which is done by the meter on the tank. Management
anticipates that the implementation on the Manufacturing Support Suite (MSS) portion of BEN in
October 2011, will reduce the reliance on manual records to support the transactions relating to
this inventory item.

2010-02         Ineffective Monitoring of the Security Hotline

During our test work over the Bureau’s security hotline in FY2010, we called the security hotline
as a test and after receiving no response for six days called a second time. An inspector
responded after an additional six days of our second call. Upon meeting with the inspector we
requested to review the hotline call logs and were informed that no logs were retained from
October 1, 2009 through December 31, 2009. In addition, we noted that our initial call to the
hotline was not recorded on the log for that day; however our second call was recorded. The
Bureau failed to consistently execute the controls established for the security hotline, which
requires daily, regular monitoring. The Bureau also failed to ensure that calls to the hotline were
returned in a prompt and timely manner and that call log documentation was retained.
Management explained that this was due to changes in personnel as well as changes in voice-mail
providers. OMB Circular No. A-123, Management’s Responsibility for Internal Control states
“The agency head must establish controls that reasonably ensure that …ii. assets are safeguarded
against waste, loss, unauthorized use or misappropriation”. In addition, the COSO Internal
Control Integrated Framework recommends that “alternative communication channels also
should exist for reporting sensitive information such as illegal or improper acts. Findings of
enterprise risk management deficiencies usually should be reported not only to the individual
responsible for the function or activity involved, but also to at least one level of management
above that person.” Without proper hotline monitoring, the agency increases the risk of


                                               A-1
                                                                          Appendix A, continued


undetected fraud or security violations. In addition, without proper monitoring of the hotline, the
agency may overlook important and relevant security or ethics information, for which corrective
action is needed.

We recommend that the Bureau reinforce procedures regarding proper monitoring of the hotline.
Management should also establish controls to ensure that review of existing procedures is
properly executed.

Management Response:

Management concurs with the finding and recommendation. Management has determined that
the Bureau Security Hotline is no longer needed as the Department of Treasury’s Office of
Inspector General Hotline is available and fulfills the intended purpose of the agency’s hotline.
Management intends to rescind Circular 71-00.62 “Bureau of Engraving and Printing Security
Hotline”, and, as of December 31, 2010, discontinue its use of the hotline.

2010-03         Failure to Record a Fixed Asset Disposal

During our test work over fixed asset disposals in FY2010, the Bureau did not properly monitor
and retire a fixed asset disposal. Specifically, we identified an asset which was physically
disposed of in January 2010, which was not communicated to the Bureau’s Office of Financial
Management (OFM) or removed from the Bureau’s fixed asset subsidiary ledger or general
ledger as of September 30, 2010. The proceeds from the sale of the fixed asset, which amounted
to $9,000 were not deposited on a timely basis. The Bureau failed to consistently execute
controls established within the fixed asset process, which requires all disposals be communicated
to and reviewed by OFM immediately after approval. OMB Circular No. A-123, Management’s
Responsibility for Internal Control states “The agency head must establish controls that
reasonably ensure that …ii. assets are safeguarded against waste, loss, unauthorized use or
misappropriation.” It also states, "information should be communicated to relevant personnel at
all levels within an organization. The information should be relevant, reliable, and timely." The
asset that was disposed of that was not recorded properly in the Bureau’s general ledger had a net
book value of $35 thousand at the time of disposition. As a result, the Bureau’s assets and
cumulative results were overstated by $26 thousand and cash was not recorded in the amount of
$9 thousand as of September 30, 2010. Without proper fixed asset disposal controls, the agency
increases the risk of overstating assets and cumulative results of operations.

We recommend that the Bureau implement internal controls to monitor and record the disposal of
fixed assets. Management should also require all disposals be communicated to and reviewed by
the appropriate OFM personnel immediately after approval, and establish proper controls to
ensure such notifications are occurring timely.

Management Response:

Management concurs with the finding and recommendation. The implementation of the Maximo
7.1, an asset management tool, will assist the stakeholders in the management of assets across the
assets’ entire lifecycle while standardizing the process across facilities. Management anticipates
that real-time reporting of transactions will reduce the likelihood of possible waste, loss, and
unauthorized use or misappropriation of Bureau assets. Implementation is expected in October
2011; as an interim remedy, management will take steps to disseminate information on the



                                               A-2
                                                                          Appendix A, continued


agency’s policies and procedures related to disposal of Fixed Assets with an emphasis on the
timely coordination with the Office of Financial Management.

2010-04          Lack of Acknowledged Receipt of Code of Conduct
During our test work over the Bureau code of conduct in FY2010, we selected a sample of 50
employees hired in D.C. and Ft. Worth during the fiscal year and requested documentation that
the employee had received and acknowledged the code of conduct. The Bureau was unable to
locate 5 of 39 acknowledgement forms for selected D.C. new hires and was unable to locate 11 of
11 acknowledgment forms for selected Ft. Worth new hires. The Bureau failed to consistently
execute the control established over employee acknowledgment of the code of conduct which
requires written acknowledgement of the code of conduct be obtained from each new employee.
Management explained that this was due to the division of this responsibility between multiple
employees as well as unclear document retention policies. The COSO Internal Control
Integrated Framework requires ongoing monitoring of the control environment. In evaluating the
environment COSO recommends management consider “…whether personnel are asked
periodically to state whether they understand and comply with the entity’s code of conduct and
regularly perform critical control activities. For example, consider whether personnel are required
periodically to acknowledge compliance with the code of conduct.” Without proper distribution
of the code of conduct, the agency increases the risk that an employee will not comply with or
understand the Bureau’s policies.

We recommend that the Bureau develop policies and procedures regarding employee receipt and
acknowledgment of the code of conduct. Management should also establish controls to ensure
that files are properly maintained to include employee acknowledgements of the code of conduct
and any subsequent updates to the previously employee acknowledged code of conduct.


Management Response:

Management concurs with the finding and recommendation. Currently, a checklist is utilized to
track the completion of documents distributed to new employees during New Employee
Orientation sessions. This checklist includes documentation of the employee’s receipt of the BEP
Employee Handbook which includes a section on the code of conducts. The Office of Human
Resources (OHR) intends to issue additional procedures to ensure that all required
documentations are completed, and accounted for during the New Employee Orientation sessions.




                                               A-3
                                                                               Appendix B




               STATUS OF PRIOR YEAR’S RECOMMENDATIONS

                  Recommendation                                     Status
Lack of Proper Documentation for Procurement
Approvals

We recommend that the Bureau management reinforce
the importance of procedures regarding proper review    Management was able to provide
and approval of purchase orders and invoices. We also   the requested procurement
recommended that management ensure that proper          documentation. The comment is
controls exist to ensure that review procedures are     closed.
consistently executed.

Errors in the Calculation of Accrued Interest for
Prompt Pay Act

We recommend that the Bureau determine what is
                                                        No Prompt Payment Act
causing the system to incorrectly calculate interest
                                                        exceptions were identified in
penalty payments. We also recommend the Bureau
                                                        current year testing. This
implement internal controls to correctly update the
                                                        comment is closed.
system interest rate on a timely basis.




                                            B-1
